Audit Report




OIG-11-044
Audit of the Exchange Stabilization Fund’s Fiscal Years
2010 and 2009 Financial Statements


December 6, 2010




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 6, 2010


            MEMORANDUM FOR MARK SOBEL
                           DEPUTY ASSISTANT SECRETARY FOR INTERNATIONAL
                           MONETARY AND FINANCIAL POLICY

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Exchange Stabilization Fund’s Fiscal Years 2010
                                    and 2009 Financial Statements


            I am pleased to transmit the attached audited Exchange Stabilization Fund (ESF)
            financial statement for fiscal years 2010 and 2009. Under a contract monitored by
            the Office of Inspector General, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the financial statements of ESF as of
            September 30, 2010 and 2009 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial
                        Reporting; and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP identified a significant deficiency related to
            accounting for movements in foreign currency values for other foreign currency
            denominated assets and investment securities, which was not considered a
            material weakness. Further, KPMG LLP found no instances of reportable
            noncompliance with laws and regulations tested.
Page 2


In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations.
KPMG LLP is responsible for the attached auditors’ reports dated
December 2, 2010 and the conclusions expressed in the reports. However, our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits at
(202) 927-5591.

Attachment
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND

       Financial Report

       Fiscal Year 2010
                          DEPARTMENT OF THE TREASURY
                          EXCHANGE STABILIZATION FUND

                                      Table of Contents




                                                                            Page


Policy and Operations Statements                                              2
Independent Auditors’ Report                                                  5
Independent Auditors’ Report on Internal Control Over Financial Reporting     6
Independent Auditors’ Report on Compliance and Other Matters                  10
Financial Statements:
   Statements of Financial Position                                           11
   Statements of Income and Comprehensive Income and Retained Earnings        12
   Statements of Cash Flows                                                   13
Notes to Financial Statements                                                 14




                                               1
                         EXCHANGE STABILIZATION FUND
                       POLICY AND OPERATIONS STATEMENTS
                                FISCAL YEAR 2010



The Nature and Function of the Exchange Stabilization Fund

The Gold Reserve Act of 1934 established a fund to be operated by the Secretary of the
Treasury, with the approval of the President. Section 10 of the Act provided that “For the
purpose of stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the
approval of the President, directly or through such agencies as he may designate, is authorized,
for the account of the fund established in this section, to deal in gold and foreign exchange and
such other instruments of credit and securities as he may deem necessary to carry out the purpose
of this section.” To this end, the Congress, in 1934, appropriated to the Exchange Stabilization
Fund (ESF) the sum of $2 billion out of the increment resulting from the reduction in the “weight
of the gold dollar.” Subsequent amendments to the Gold Reserve Act approved the operation of
the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts, approved
July 31, 1945, continued its operations permanently.

The Bretton Woods Agreements Act also directed the Secretary of the Treasury to pay
$1.8 billion from the ESF to the International Monetary Fund (IMF), for the initial U. S. quota
subscription in the IMF, thereby reducing the ESF’s appropriated capital to $200 million.

Reflecting termination of the fixed exchange rate system, legislation enacted in 1976
(P.L. 94-564, October 19, 1976) amended the language of Section 10 of the Gold Reserve Act to
specify that the ESF is to be utilized as the Secretary “may deem necessary to and consistent
with the United States obligations in the International Monetary Fund.” This amendment
became effective on April 1, 1978, the date of entry into force of the Second Amendment of the
IMF Articles of Agreement. In 1977, P.L. 95-147 further amended Section 10 of the Gold
Reserve Act. Following codification, Section 10 now provides in relevant part:

   Consistent with the obligations of the Government in the International Monetary Fund on
   orderly exchange arrangements and a stable system of exchange rates, the Secretary or an
   agency designated by the Secretary, with the approval of the President, may deal in gold,
   foreign exchange, and other instruments of credit and securities the Secretary considers
   necessary. However, a loan or credit to a foreign entity or government of a foreign country
   may be made for more than 6 months in a 12-month period only if the President gives
   Congress a written statement that unique or emergency circumstances require the loan or
   credit be for more than 6 months (31 U.S.C. 5302 (b)).

Pursuant to the Special Drawing Rights Act of 1968 (P.L. 90-349, amended by P.L. 94-564),
Special Drawing Rights (SDRs) allocated by the IMF to the United States or otherwise acquired
by the United States are resources of the ESF.

Section 286p of Title 22 of the United States Code allows for SDRs to be
monetized/demonetized through the issuance/redemption by the Secretary of the Treasury of
SDR certificates to the Federal Reserve Banks in exchange for dollars. The total amount of SDR


Unaudited – see accompanying auditor’s report                                           2
                         EXCHANGE STABILIZATION FUND
                       POLICY AND OPERATIONS STATEMENTS
                                FISCAL YEAR 2010



certificates outstanding cannot exceed the dollar equivalent of ESF (i.e., U. S.) holdings of
SDRs; such certificates are a liability of the ESF.

I.    Foreign Currency Operations

      During fiscal year 2010, the ESF engaged in no foreign exchange market transactions.

      a. Euros and Japanese Yen

         The ESF had a net valuation loss of $51.6 million on its holdings of euros and yen. The
         ESF had investment income of $230.9 million equivalent on its euro and yen assets.

      b. Mexico

         In December 2009, the Treasury and Federal Reserve Bank of New York, acting as
         Treasury’s fiscal agent, renewed the Exchange Stabilization Agreement with Mexico
         for another year to December 2010.

II.   SDR Operations

      As of September 30, 2010, U. S. holdings (assets) of SDRs totaled SDR 36.9 billion
      ($57.4 billion equivalent), a net increase of SDR .3 billion during Fiscal Year 2010.
      However, as the SDR depreciated against the dollar in this period, there was a net valuation
      loss of $1 billion on U.S. holdings of SDRs. The ESF reimbursed the Treasury’s General
      Fund $23.4 million for SDRs received from the IMF as remuneration on the U.S. reserve
      position in the IMF. The ESF earned interest of $147.1 million equivalent on its SDR
      holdings.

      As of September 30, 2010, cumulative allocations to (liabilities of) the United States
      totaled SDR 35.3 billion ($55.0 billion equivalent). These liabilities would come due only
      in the event of liquidation of, or U.S. withdrawal from, the SDR Department of the IMF, or
      cancellation of SDRs.

      There were $5.2 billion of SDR certificates that had been issued to the Federal Reserve
      System prior to fiscal year 2010.

III. Income and Expense

      Interest revenue totaled $397.4 million, consisting of $19.3 million in interest on dollar
      holdings invested in U.S. Government securities, $0.2 million in interest on dollar holdings
      invested in Government Sponsored Enterprises (GSE) securities, $147.1 million equivalent
      in interest on SDR holdings, and $230.9 million equivalent in interest on foreign currency
      investments.

Unaudited – see accompanying auditor’s report                                            3
                          EXCHANGE STABILIZATION FUND
                        POLICY AND OPERATIONS STATEMENTS
                                 FISCAL YEAR 2010




     Interest expense totaled $141.0 million, primarily representing interest charges on SDR
     Allocations.

IV. On November 19, 2008, Treasury entered into a transaction with the Reserve Fund's U.S.
Government Fund (USGF), under which Treasury (1) executed the Guarantee Agreement which
accepted the USGF into the Treasury Guarantee Program (see Note 7) and (2) signed a Letter
Agreement with the USGF. Under the terms of the Letter Agreement, Treasury was obligated to
purchase the USGF’s remaining securities issued by four U.S. government sponsored enterprises.
On January 15, 2009, the ESF purchased approximately $3.6 billion of these securities; the
purchase price representing the amortized cost of the remaining securities, plus accrued but
unpaid interest. Upon consummation of the purchase, these GSE securities were classified as held to
maturity. By November 2009, all such GSE securities had matured.




Unaudited – see accompanying auditor’s report                                             4
                                KPMG LLP
                                Washington, DC




                                          Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

We have audited the accompanying statements of financial position of the U.S. Department of the
Treasury’s Exchange Stabilization Fund (“ESF”) as of September 30, 2010 and 2009, and the related
statements of income and comprehensive income and retained earnings, and cash flows, (hereinafter
referred to as “financial statements”) for the years then ended. These financial statements are the
responsibility of the ESF’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the ESF’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the ESF as of September 30, 2010 and 2009, and the results of its operations and its
cash flows for the years then ended in conformity with U.S. generally accepted accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Policy and Operations Statements section on pages 2 to 4 is presented for
purposes of additional analysis and is not required as part of the financial statements. This information has
not been subjected to auditing procedures and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 2,
2010, on our consideration of the ESF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




December 2, 2010
                                                                       5

                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                               KPMG LLP
                               Washington, DC




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
U.S. Department of the Treasury:

We have audited the statements of financial position of the U.S. Department of the Treasury’s Exchange
Stabilization Fund (“ESF”) as of September 30, 2010 and 2009 and the related statements of income and
comprehensive income and retained earnings, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated December 2, 2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the ESF is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2010 audit, we considered the ESF’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of ESF’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the ESF’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the ESF’s internal control over financial reporting. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses.

In our fiscal year 2010 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we identified a certain
deficiency in internal control over financial reporting that we consider to be a significant deficiency as
described below.



                                                                      6
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
SIGNIFICANT DEFICIENCY

Financial Management

Management improperly recognized the movements in foreign currency values related to Other Foreign
Currency Denominated Assets (FCDAs) and Investment Securities as current income, as opposed to
properly classifying these fair value changes as a separate component of equity (i.e. specifically as other
comprehensive income). Unrealized gains on these available-for-sale securities are comprised of two
components – 1) movements in interest rates and credit risks, and 2) movements in foreign currency
values. Management only reported the movement in interest rates and credit risks in other comprehensive
income, rather than including both components.

Financial Accounting Standards Board (FASB) Accounting Standards Codification (ASC) section 320-10-
35-36 requires that the entire change in the fair value of foreign-currency-denominated available-for-sale
debt securities be reported in other comprehensive income.

The U.S. Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government (GAO/AIMD-00-21.3.1) states: “Transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions. This applies to the
entire process or life cycle of a transaction or event from the initiation and authorization through its final
classification in summary records. In addition, control activities help to ensure that all transactions are
completely and accurately recorded.” It also states, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be readily available for
examination.”

This deficiency caused $1.2 billion of unrealized gains on available-for-sale investment securities to be
recorded as realized gains in fiscal year 2009, which resulted in an equal reclassification from retained
earnings to accumulated other comprehensive income on the Statement of Financial Position; and other
less significant consequential changes in 2010.

We noted this deficiency was caused by the following:

1   Technical Training of Accounting Personnel

    These errors stemmed in part from an incomplete understanding of the prescriptive US generally
    accepted accounting principles (GAAP) treatment for this class of transactions. As part of the normal
    course of business for ESF, they may be expected to report on certain transactions that are of a more
    complex nature. For areas of complexity, there remain gaps in specialized technical accounting
    knowledge and experience. In the current year, ESF hired a new resource and several members of
    Departmental Offices staff attended US GAAP training, which has had a positive impact on ESF’s day
    to day accounting and financial reporting.

2   Data Obtained by ESF from their Fiscal Agent

    The errors noted above were also caused by ESF receiving data from their fiscal agent at an aggregated
    level related to this class of transactions. While the nature of the fiscal agent’s reporting may be
    satisfactory to enable broad policy-related decisions as well as frequent trading management decisions,
    it may not provide sufficient detail of transactional-level activity that may impact accounting and
    reporting matters.




                                                      7
RECOMMENDATIONS:

We recommend that ESF:

1. Continue to develop competencies in the specialized areas of US GAAP relevant to financial
   instruments through increased training and the addition of resources with experience in such technical
   accounting areas.
2. Utilize, when available, resources available within Treasury and externally (i.e., external consultants)
   to review matters related to unusual or complex transactions on a “real time” basis.
3. Periodically (at least annually) evaluate the nature of transactional-level reporting provided by their
   fiscal agent to ensure the appropriate level of detail is produced and available for ESF accountants.


The ESF’s response to our finding is presented in Exhibit I. We did not audit management’s response and,
accordingly, we express no opinion on it.

                                            **************

This report is intended solely for the information and use of the addressee, ESF’s management, OMB, the
U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




December 2, 2010




                                                    8
                                                           Exhibit 1 – Management’s Response



SIGNIFICANT DEFICIENCY

ESF concurs with the recommendations and will continue to provide training in the specialized areas of US
GAAP relevant to financial instruments to ensure its staff can appropriately account for new and emerging
issues. Furthermore, to the extent possible, ESF will leverage other resources within Treasury to review
matters related to unusual or complex transactions, utilizing consultants to the extent practical and
appropriate. ESF is currently working with the Federal Reserve Bank of New York, its fiscal agent, to
address reporting issues. Until these issues are resolved, ESF will manually analyze the valuation gain or
loss on each instrument to ensure it reflects proper presentation prescribed by the Financial Accounting
Standards Board.




                                                    9
                               KPMG LLP
                               Washington, DC




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury:

We have audited the statements of the financial position of the U.S. Department of the Treasury’s
Exchange Stabilization Fund (“ESF”) as of September 30, 2010 and 2009, and the related statements of
income and comprehensive income and retained earnings, and cash flows (hereinafter referred to as
“financial statements”) for the years then ended, and have issued our report thereon dated December 2,
2010.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the ESF is responsible for complying with laws, regulations, and contracts applicable
to the ESF. As part of obtaining reasonable assurance about whether the ESF’s financial statements are free
of material misstatement, we performed tests of the ESF’s compliance with certain provisions of laws,
regulations, and contracts, and noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of compliance to the provisions
described in the preceding sentence, and we did not test compliance with all laws, regulations, and
contracts applicable to the ESF. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards and OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the addressee, ESF’s management, OMB, the
U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




December 2, 2010




                                                                     10
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF FINANCIAL POSITION
(In Thousands)

As of September 30                                                                2010            2009

Assets

Cash and Cash Equivalents (Note 2)                                           $    28,520,996 $    28,484,464
Securities Purchased Under Agreement to Resell (Note 3)                            2,503,143       2,642,566
Government Sponsored Enterprise Securities (Notes 5 and 8)                                 -       1,100,000
Investment Securities and Other Foreign Currency Denominated Assets (Note 5)      15,353,238      14,688,762
Special Drawing Right Holdings (Note 4)                                           57,410,474      57,945,186
Interest Receivable                                                                  113,597         137,987
Interest Receivable on Special Drawing Right Holdings                                 28,815          15,796
Total Assets                                                                 $   103,930,263 $   105,014,761

Liabilities and Equity

Liabilities:
     Certificates Issued to Federal Reserve Banks (Note 7)                  $      5,200,000 $     5,200,000
     Special Drawing Right Allocations (Note 4)                                   54,957,909      55,953,105
     Interest Payable on Special Drawing Right Allocations                            27,585          14,916
     Other                                                                               182             228
Total Liabilities                                                                 60,185,676      61,168,249

Commitments and Contingencies (Note 10)

Equity:
     Appropriated Capital                                                            200,000         200,000
     Retained Earnings (Note 1)                                                   42,371,994      42,212,542
     Accumulated Other Comprehensive Income (Notes 1 and 6)                        1,172,593       1,433,970
Total Equity                                                                      43,744,587      43,846,512

Total Liabilities and Equity                                                $    103,930,263 $   105,014,761


See accompanying notes to financial statements.




                                                             11
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF INCOME AND COMPREHENSIVE INCOME AND RETAINED EARNINGS
(In Thousands)

For the years-ended September 30                                                                       2010           2009

Interest Income
      Interest on Cash and Cash Equivalents                                                        $       32,390 $       78,818
      Interest on Securities Purchased Under Agreement to Resell                                            7,320         48,264
      Interest on Government Sponsored Enterprise Securities                                                  150          6,571
      Interest on Investment Securities and Other Foreign Currency Denominated Assets                     210,450        252,359
      Interest on Special Drawing Right Holdings                                                          147,140         75,654
Total Interest Income                                                                                     397,450        461,666

Interest Expense
      Interest on Special Drawing Right Allocations                                                     (141,003)       (63,265)
      Interest on Special Drawing Right -
         Remuneration due to the U.S. Treasury                                                                (3)            (4)
Total Interest Expense                                                                                  (141,006)       (63,269)

Net Interest Income                                                                                      256,444        398,397

Net Gains/(Losses)
      Gain/(Loss) on Foreign Currency Valuation of:
        Special Drawing Rights Holdings                                                                (1,039,862)      1,072,409
        Special Drawing Rights Allocations                                                                994,821     (1,038,686)
        Investment Securities and Other Foreign Currency Denominated Assets, net (Notes 1 and 5)          121,262      1,151,272
        Securities Purchased Under Agreement to Resell                                                   (172,821)      (107,978)
Total Net Gains/(Losses)                                                                                  (96,600)      1,077,017

Other Income
     Insurance Premiums (Note 8)                                                                                 -     1,155,033

Other Expenses
     International Monetary Fund Annual Assessment                                                            (392)          (536)

Net Income                                                                                               159,452       2,629,911

Other Comprehensive Income
     Unrealized Holding Gain/(Loss) (Notes 1 and 6)                                                     (261,377)      1,398,496

Comprehensive Income/(Loss)                                                                        $    (101,925) $    4,028,407

Retained Earnings, Beginning of Year                                                               $   42,212,542 $   39,582,631

Net Income                                                                                               159,452       2,629,911

Retained Earnings, End of Year                                                                     $   42,371,994 $   42,212,542


See accompanying notes to financial statements.




                                                                    12
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF CASH FLOWS
(In Thousands)

For the years-ended September 30                                                                2010               2009

Cash Flows from Operating Activities:
     Interest Received on:
         Cash and Cash Equivalents                                                         $            32,513 $           86,140
         Securities Purchased Under Agreement to Resell                                                  7,318             49,413
        Investment Securities and Other Foreign Currency Denominated Assets                            236,031            269,192
     Commissions Received on Credit Facility
        Government Sponsored Enterprises                                                                    150          5,880
     Insurance Premiums                                                                                       -      1,160,386
    Other                                                                                               (1,706)       (11,059)
Net Cash Provided by Operating Activities                                                              274,306       1,559,952

Cash Flows from Investing Activities:
     Purchases of Government Sponsored Enterprises Securities                                             -         (3,629,795)
     Maturities of Government Sponsored Enterprises Securities                                    1,100,000           2,529,795
     Net Purchases/Maturities of Securities Purchased Under Agreement to Resell                     (33,398)            900,120
     Net Purchases/Maturities of Investment Securities and Foreign Currency Denominated Asset      (621,920)          (981,397)
     Reimbursement for Remuneration Received                                                        (23,470)           (39,657)
     Purchase of Special Drawing Rights                                                            (476,707)          (111,128)
     Other                                                                                              391                 549
Net Cash Used in Investing Activities                                                               (55,104)        (1,331,513)

Cash Flows from Financing Activities:
     Certificates Issued to Federal Reserve Banks                                                            -       3,000,000
Net Cash Provided by Financing Activities                                                                    -       3,000,000

     Effect of Exchange Rate on Cash                                                               (182,670)              994,121

Net Increase in Cash and Cash Equivalents                                                               36,532       4,222,560

Cash and Cash Equivalents,
  Beginning of Year                                                                              28,484,464         24,261,904

Cash and Cash Equivalents,
  End of Year                                                                              $     28,520,996 $       28,484,464

Reconciliation of Net Income to Net Cash Provided by
  Operating Activities
      Net Income                                                                           $           159,452 $     2,629,911
      Adjustments to Reconcile Net Income to Net Cash Provided by
        Operating Activities:
            Net Exchange Rate Gain/(Loss) on FCDAs and Investment Securities                         51,559         (1,043,294)
            (Decrease) Increase in Special Drawing Right Holdings Due to Valuation                1,040,255         (1,074,685)
            Net Increase in Special Drawing Rights Holdings                                          (5,803)           (19,779)
            Decrease in Accrued Interest Receivable                                                  11,371              44,221
            Decrease in Insurance Premium Receivable                                                      -             298,147
            (Decrease)/Increase in Special Drawing Right Allocations Due to Valuation             (995,196)           1,040,515
            (Decrease)/Increase in Accrued Interest Payable and Other                                12,668            (22,284)
            Decrease in Deferred Insurance Premium Revenue                                                -           (292,800)
Total Adjustments                                                                                   114,854         (1,069,959)
Net Cash Provided by Operating Activities                                                  $        274,306 $         1,559,952

Significant Non-Cash Transactions
      Allocation of Special Drawing Rights by IMF                                          $                 - $    47,597,925


See accompanying notes to financial statements.



                                                                       13
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2010 and 2009



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.    Entity

The Exchange Stablization Fund (ESF) was originally established pursuant to section 10 of the Gold
Reserve Act of 1934 for the purpose of stabilizing the exchange value of the dollar. Section 10 has been
amended several times since 1934. This section currently authorizes the Secretary, with the approval of the
President, to deal in gold, foreign exchange, and instruments of credit and securities consistent with US
obligations in the International Monetary Fund on orderly exchange arrangements and a stable system of
exchange rates. 31 U.S.C. 5302(b).

The Federal Reserve Bank of New York (FRBNY) acts as the fiscal agent for the ESF, as permitted by the
Federal Reserve Act. As the fiscal agent, the FRBNY plays a significant role in the processing of foreign
currency transactions that the Secretary of the Treasury authorizes. The manager of the ESF foreign
currency portfolio at the FRBNY consults regularly with the Federal Open Market Committee and the U.S.
Department of the Treasury (Treasury) about the disposition of investments and the status of the portfolio.
The level and currency composition of the ESF foreign currency portfolio are the products of Treasury
policy determinations. The ESF management is responsible for the record keeping and investment decisions
for foreign currency transaction activity carried out by the FRBNY.

By law, the ESF is not available to pay administrative expenses. Instead the Treasury’s Office of
International Affairs has responsibility for managing ESF operations, and Treasury’s Office of Financial
Management provides the recordkeeping and financial reporting services for the ESF. These Treasury
offices bear all administrative expenses of the ESF. Accordingly, there are no administrative expenses
reported in the financial statements.

 B.     Basis of Accounting and Presentation

The ESF has historically prepared its financial statements in accordance with generally accepted accounting
principles, based on accounting standards issued by the Financial Accounting Standards Board (FASB), the
private-sector standards-setting body.

C.    Use of Estimates

The preparation of financial statements requires management to make estimates and assumptions that affect
the reported amounts of assets, liabilities, and disclosures of contingent assets and liabilities at the date of
the financial statements and the reported amounts of revenues and expenses during the reporting period.
Significant estimates are used in the preparation of amounts related to the valuation of investments and
contingent liabilities. Actual results could differ from those estimates.

D.    Cash and Cash Equivalents

Cash equivalents are short-term, highly liquid investments that are both readily convertible to known
amounts of cash, and so near their maturity that they present insignificant risk of change in value due to
changes in interest rates. Cash and Cash Equivalents consist of the following:
  • U.S. Government Securities
  • Short-term Foreign Currency Denominated Assets (FCDAs) – including deposits and securities
     denominated in both euro and yen
                                                      14
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2010 and 2009



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

E.    Investments

Held-to-maturity securities are those securities in which the entity has the ability and intent to hold the
security until maturity. Held-to-maturity securities are recorded at amortized cost, adjusted for the
amortization and accretion of premiums or discounts. The Government-Sponsored Enterprise (GSE)
securities, purchased by the ESF pursuant to the money market program discussed in Notes 5 and 9, are
classified as “held-to-maturity”.

Trading securities are bought and held principally for the purpose of selling them in the near term. ESF has
no securities classified as trading.

Available-for-sale securities are those which are neither trading nor held-to-maturity. ESF’s Other FCDAs
and Investment Securities are classified as available-for-sale. Available-for-sale securities are recorded at
fair value. Unrealized holding gains and losses on available-for-sale securities are excluded from earnings
and are reported as a separate component of accumulated other comprehensive income until realized.
Realized gains and losses from the sale of available-for-sale securities are determined on a specific-
identification basis.

Interest on investments, amortization of premiums, and accretion of discounts are reported in Interest
Income and are recognized on an accrual basis. Premiums and discounts are amortized or accreted over the
life of the related investment security as an adjustment to yield using the effective–interest method.

Foreign currency assets (FCA) include interest-bearing foreign deposit accounts and investments in foreign
government securities.

FCAs also include FCDAs –reported as Cash and Cash Equivalents, Other FCDAs, and Investment
Securities. These categorizations are based on maturity. FCDAs have terms of 3 months or less. Other
FCDAs have terms of less than or equal to a year but greater than 3 months and Investment Securities have
terms greater than a year.

F. Securities Purchased Under Agreement to Resell

Securities Purchased Under Agreement to Resell, have agreement terms that do not exceed 90 days, and
these are generally treated as collateralized financial transactions and are carried at amounts at which the
securities were acquired, adjusted for translation gains/losses if such agreements pertained to FCAs.

G.    Foreign Currency Valuations

In accordance with Foreign Currency Matters (FASB ASC 830), FCAs as well as Special Drawing Rights
and related accrued interest receivable or payable, discussed below, are revalued to reflect current exchange
rates in effect as of the reporting date. Such gains or losses, recognized in the period of the fluctuations, are
reported on the Statements of Income and Comprehensive Income and Retained Earnings as Gains (Losses)
on Foreign Currency Valuation. Gains and losses related to foreign currency valuations of Investment
Securities and Other FCDAs are excluded from earnings and are reported as a component of other
comprehensive income until realized.

                                                       15
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2010 and 2009



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

H.       Fair Values of Financial Instruments

Fair Value Measurements and Disclosures (FASB ASC 820-10) establishes a fair value hierarchy that
prioritizes the inputs to valuation techniques used to measure fair value. The hierarchy gives the highest
priority to unadjusted quoted prices in active markets for identical assets or liabilities (Level 1
measurements) and lowest priority to measurements involving significant unobservable inputs (Level 3
measurements). The three levels of the fair value hierarchy are as follows:

     •    Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
          that the ESF has the ability to access at the measurement date.

     •    Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
          the asset or liability, either directly or indirectly.

     •    Level 3 inputs are unobservable inputs for the asset or liability.

All of the ESF’s investments except for the GSE Securities and Securities Purchased under Agreement to
Resell are Level 1 measurements since these financial assets are traded in active markets where quotable
values are readily available. GSE Securities and Securities Purchased under Agreement to Resell are
considered Level 2 as they are not traded on active exchanges; however, there are similar securities that
can be used to estimate fair value.

I.       Other-than-temporary-Impairment

A decline in the market value of any investment below cost that is deemed to be other-than-temporary is
accounted for as an impairment and the carrying value is reduced to fair value for financial statement
reporting purposes. The impairment is charged to earnings and the charge establishes a new cost basis for
the investment. To determine whether an impairment is other-than-temporary, the ESF considers whether
it has the ability and intent to hold the investment until a market price recovery and considers whether
evidence indicating the cost of the investment is recoverable outweighs evidence to the contrary.
Evidence considered in this assessment includes the reasons for the impairment, the severity and duration
of the impairment, changes in value subsequent to year-end, forecasted performance of the investee and
the general market condition in the geographic area or industry the investee operates in. ESF regularly
evaluates whether unrealized losses on investment securities indicate other-than-temporary impairment
that would require recognition in the financial statements.

J.       Certificates Issued to Federal Reserve Banks

Certificates issued to Federal Reserve Banks (FRB) are reflected on the Statements of Financial Position
at their face value. Under the terms of the agreement, there is no set repayment date and no interest
accrued while certificates remain outstanding. As a result, the carrying amount represents the face value.




                                                       16
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2010 and 2009



NOTE 1 – SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (Continued)

K.    U.S. Government Securities

The ESF invests dollars in excess of its immediate needs in overnight, nonmarketable U.S. government
securities issued by the Treasury. The interest rate earned on the investments is equal to the overnight
repurchase agreement rate as established by the Treasury’s Bureau of Public Debt.

L.    Other Comprehensive Income

Accumulated Other Comprehensive Income (Loss) is made up only of changes in the fair value of
investments classified as available-for-sale. Unrealized gains and losses, if any, would subsequently be
reclassified into income in the same period the underlying investment is either sold or transferred to the
Trading classification.

M.    Tax-Exempt Status

As a component of the Treasury, which is a federal agency, the ESF is not subject to federal, state, or
local income taxes, and accordingly, no provision for income taxes is recorded.

N.    Reclassifications

Certain reclassifications have been made to prior year amounts to conform to the current year presentation.
Other Foreign Currency Denominated assets have been combined with Investment Securities for reporting
purposes.

O. Immaterial Correction of Error in Previously Issued Financial Statements

The ESF’s previously issued 2009 financial statements have been revised to correct an immaterial error. In
2009, ESF incorrectly recorded $1.2 billion of unrealized gains on available-for-sale investment securities as
realized gains, which are reported on the line item “Net Gains (Losses) – Investment Securities and Other
Foreign Currency Denominated Assets, net”. These unrealized gains should have been included on the line
item “Other Comprehensive income – unrealized gains”. The 2009 income statement presented herein has
been revised to report “Net Gains (Losses) – Investment Securities and Other Foreign Currency
Denominated Assets, net” of $1.2 billion and “Other Comprehensive income – unrealized gains” of $1.4
billion. As a result, net income for the year ended September 30, 2009, has been reduced by $1.2 billion
from $3.8 billion to $2.6 billion, but total comprehensive income of $4.0 billion as originally reported was
not affected by this error. ESF also corrected its balance sheet for the above error by reclassifying $1.2
billion from retained earnings to accumulated other comprehensive income. However, investment
securities, total assets and total equity, as originally reported as of September 30, 2009, were not affected by
this error. Management of the ESF believes this adjustment is not material to the previously issued financial
statements taken as a whole.




                                                      17
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2010 and 2009



NOTE 2 – CASH AND CASH EQUIVALENTS

Cash and cash equivalent amounts held as of September 30, 2010 and 2009 is as follows:

 September 30 (In Thousands)                                                2010                      2009

 Cash and cash equivalents:
 U. S. government securities                                             $ 20,436,050             $ 19,816,090

 Short-term FCDAs:
    European euro                                                           4,264,817                 5,129,873
    Japanese yen                                                            3,820,129                 3,538,501
 Total short-term FCDAs                                                     8,084,946                 8,668,374
 Total cash and cash equivalents                                         $ 28,520,996              $ 28,484,464

NOTE 3 – SECURITIES PURCHASED UNDER AGREEMENT TO RESELL

The FRBNY enters into transactions to purchase foreign-currency-denominated government-debt securities
under agreements to resell for which the accepted collateral is the debt instruments, denominated in Euro,
and issued or guaranteed in full by Belgium, France, Germany, Italy, the Netherlands and Spain. Maturities
of the underlying Securities do not exceed 10.5 years. The duration of individual repurchase transactions do
not exceed 90 days. ESF’s investments in securities purchased under agreement to resell involve a pledge
of securities account with Euroclear, the custodian/tri-party agent for such operations, to facilitate intra-day
clearance of transactions. Accrued interest related to these securities is reported as Interest Receivable in the
Statements of Financial Position. These agreements are subject to daily margining requirements.

NOTE 4 – SPECIAL DRAWING RIGHTS

The SDR is an international reserve asset created by the International Monetary Fund (IMF) in 1969 to
supplement the existing reserve assets of IMF member countries, including the United States. In addition
to its role as a supplementary reserve asset, the SDR serves as a means of payment within the IMF, as
well as the unit of account for the IMF and several other international organizations. SDRs may be held
only by the official sector – IMF countries and certain institutions designated by the IMF as prescribed
holders. On several occasions SDRs have been allocated by the IMF to members participating in the
IMF’s SDR Department, including the United States. SDR transactions by the United States require the
explicit authorization of the Secretary of the Treasury.

The SDR’s value is based on a weighted average of a basket of key international reserve currencies issued
by IMF members (or monetary unions that include IMF members) which have been determined by the
IMF to be freely usable currencies. These currencies are the U.S. dollar, the Euro, the Japanese yen, and
the pound sterling. The SDR carries a variable interest rate, calculated weekly as a weighted average of
short-term interest rates of the SDR basket of currencies. The ESF’s SDR Allocations and Holdings (see
below) are revalued monthly, based on the SDR valuation rate calculated by the IMF, and unrealized
gains or losses on revaluation are recognized. SDR Holdings and SDR Allocations are reported as an
asset and liability respectively in the financial statements of the ESF.


                                                       18
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2010 and 2009



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

SDR Allocations

SDRs, once allocated to the United States, are permanent resources unless:

    a. They are canceled by an 85 percent majority decision of the total voting power of the Board of
       Governors of the IMF;

    b. The SDR Department of the IMF is liquidated;

    c. The IMF is liquidated; or

    d. The United States chooses to withdraw from the IMF or terminate its participation in the SDR
       Department.

Due to the fact that the SDRs are able to be withdrawn, the ESF carries a liability related to such
allocations.

Except for the payment of interest and charges on SDR allocations to the United States, the payment of
the ESF’s liability related to the SDR allocations is conditional on events listed above, in which the
United States has a controlling voice. Allocations of SDRs were made during 1970, 1971, 1972, 1979,
1980, 1981, and 2009.

On August 28, 2009, the ESF received an allocation of 27.5 billion SDRs, or $42.8 billion worth of
SDRs, as the U.S. share of a general allocation from the IMF. On September 9, 2009, ESF received
2.9 billion SDRs or $4.5 billion worth of SDRs as the U.S. share of a special allocation from the IMF.

As of September 30, 2010 and 2009, the value of SDR allocations to the United States was the equivalent
of $54.9 billion and $55.9 billion, respectively.

SDR Holdings

Pursuant to the Special Drawing Rights Act of 1968, as amended, SDRs allocated by the IMF to, or
otherwise acquired by the United States are also resources (holdings) of the ESF. SDR Holdings represent
transactions resulting from these SDR activities, primarily the result of IMF allocations. Other
transactions reported in this account are recorded as they are incurred and include any SDR acquisitions
and sales, interest received on SDR Holdings, interest charges on SDR Allocations, and other SDR
related activities, as well as valuation adjustments.

In fiscal year 2009, Treasury entered into a voluntary arrangement with the IMF allowing Treasury to
purchase up to approximately 16 billion SDRs. On September 23, 2009 70 million SDRs were purchased
from Guyana and on November 6, 2009 300 million SDRs were purchased from Ukraine.




                                                   19
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2010 and 2009



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

Other SDR Activities

The U.S. Government receives remuneration in SDRs from the IMF on the U.S. claim on the IMF,
represented by the U.S. Reserve Position. ESF is the only agency within Treasury permitted to transact in
SDRs. SDRs received become the resources of ESF, as required by law, and ESF pays the dollar
equivalent to the U. S. Government’s Treasury General Account (TGA). The ESF's receipt of the SDRs
and payment of the dollar equivalent to the TGA are not simultaneous. Typically, the payment is several
weeks after the receipt of SDRs from the IMF. Therefore, the ESF must reimburse the TGA the interest it
earned on the dollar equivalent of the SDRs held on behalf of the TGA during the period which elapsed
between the receipt of the SDRs and the dollar payment to the TGA.

ESF paid to the TGA $2,900 and $4,000 in fiscal years 2010 and 2009, respectively, in interest due on the
transferred dollars. The ESF did not sell SDRs to any participating members during fiscal year 2010 or
2009.

The following schedule reflects the activity related to SDR Holdings during fiscal years 2010 and 2009 in
SDR and dollar equivalent.


 September 30 (SDR In Thousands)                            2010                            2009

 Beginning balance                                          36,573,014                       6,047,663
 Interest credits on holdings                                   87,324                          69,187
 Interest charges on allocations                              (83,558)                        (55,965)
 Remuneration                                                   15,195                          26,345
 IMF annual assessment                                           (288)                           (366)
 General/Special Allocations                                         -                      30,416,150
 Purchases                                                     300,000                          70,000
 Total SDR - Holdings                                       36,891,687                      36,573,014


 September 30 (Dollar Equivalent In
 Thousands)                                                  2010                            2009

 Beginning balance                                      $     57,945,186                $     9,417,541
 Interest credits on holdings                                    134,513                        103,495
 Interest charges on allocations                               (128,710)                       (83,716)
 Remuneration                                                     23,470                         39,656
 IMF annual assessment                                             (437)                          (547)
 General/Special Allocations                                           -                     47,282,944
 Purchases                                                       476,707                        111,128
 Net gain/(loss) on valuation of holdings                    (1,040,255)                      1,074,685
 Total Dollar Equivalent – Holdings                     $     57,410,474            $        57,945,186



                                                   20
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2010 and 2009



NOTE 4 – SPECIAL DRAWING RIGHTS (Continued)

The table above reflects the actual dollar equivalent amount of SDRs received or transferred by ESF.
Amounts within the financial statements computed on accrual basis will thus differ since actual SDR
movements occur shortly after the balance sheet date.

NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS

The amortized cost, gross unrealized holding gains and losses, and fair value of available-for-sale and held-to-
maturity debt securities by major security type and class of security at September 30, 2010 and 2009 were as
follows:

                                                                  Gross                 Gross
                                                                Unrealized            Unrealized
 September 30, 2010                   Amortized                  Holding               Holding
 (In Thousands)                         Cost                      Gains                (Losses)             Fair Value

  Available for sale:
   Other FCDAs                       $   2,679,777          $          167,965       $              -        $ 2,847,742
   German Bonds                          1,870,922                      34,242               (23,791)          1,881,373
   French Bonds                          1,180,688                      46,889                (5,607)          1,221,970
   French Notes                          1,590,177                      45,874                (7,527)          1,628,524
   Japanese Bonds                        6,859,081                     914,548                      -          7,773,629
 Total                                $ 14,180,645          $        1,209,518       $       (36,925)        $15,353,238


                                                              Gross                    Gross
                                                            Unrealized               Unrealized
September 30, 2009                   Amortized               Holding                  Holding
(In Thousands)                         Cost                   Gains                   (Losses)              Fair Value

 Available for sale:
  Other FCDAs                       $ 2,269,669         $            114,327     $           (2,610)        $ 2,381,386
  German Bonds                        2,007,083                      167,431                       -          2,174,514
  French Bonds                        1,100,210                      109,548                        -         1,209,758
  French Notes                        1,536,525                      141,855                        -         1,678,380
  Japanese Bonds                      6,341,305                      903,419                        -         7,244,724

Total                               $ 13,254,792        $           1,436,580            $   (2,610)        $ 14,688,762

 Held to maturity:
  GSE Securities                     $ 1,100,000                $         141                           -    $ 1,100,141


Other FCDAs represent Euro denominated instruments issued by the Bank of International Settlements,
and typically mature within one year.

                                                      21
                                  DEPARTMENT OF THE TREASURY
                                  EXCHANGE STABILIZATION FUND
                                 NOTES TO FINANCIAL STATEMENTS
                                     September 30, 2010 and 2009



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS
(Continued)

During fiscal year 2009, ESF transferred Other FCDAs and Investment Securities to the available-for-sale
classification. This was based on re-assessment by management concerning its intent and ability to hold such
securities to maturity. All unrealized holding gains and losses related to held-to-maturity securities transferred
to available-for-sale are recorded in Accumulated Other Comprehensive Income.

On November 19, 2008, pursuant to Treasury’s temporary money market program discussed in Note 8, the
Treasury entered into a transaction with the Reserve Fund’s U.S. Government Fund (USGF), under which
the Treasury (i) executed the Guarantee Agreement which accepted the USGF into the Treasury Guarantee
Program (Note 8) and (ii) signed a Letter Agreement with the USGF. The Letter Agreement addresses
matters such as the sale of portfolio of securities, ESF’s purchase of remaining securities, liquidation and
other matters arising out of the USGF’s decision to suspend the redemption of the USGF’s shares and to
liquidate the USGF. On January 15, 2009, based on the terms of the Letter Agreement, the ESF purchased
approximately $3.6 billion of GSE debt securities; which was the purchase price representing the amortized
cost of the remaining securities, plus accrued but unpaid interest. By November 2009, all such GSE
securities had fully matured.

Maturities of debt securities classified as available for sale were as follows at September 30, 2010:

 September 30, 2010 (In Thousands)                      Amortized Cost               Fair Value

  Available-for-sale:
   Due within one year                                   $      6,540,433        $        7,185,263
   Due after one year but before five years                     7,640,212                 8,167,975
  Total                                                  $     14,180,645        $       15,353,238


Impairment Assessment

The ESF evaluates whether unrealized losses on investment securities indicate other-than-temporary
impairment. Based on this evaluation, ESF recognized no other-than-temporary impairment losses on any
securities in fiscal years 2010 and 2009.

Fair Value

The fair value of securities available for sale are measured using the hierarchy or lowest level input that is
significant to the fair value measurement of the investment in its entirety. The following table presents assets
that are measured at fair value on a recurring basis at September 30, 2010 and 2009:




                                                        22
                        DEPARTMENT OF THE TREASURY
                        EXCHANGE STABILIZATION FUND
                       NOTES TO FINANCIAL STATEMENTS
                           September 30, 2010 and 2009



NOTE 5 – INVESTMENT SECURITIES AND OTHER FOREIGN CURRENCY DENOMINATED ASSETS
(Continued)

                                                    Fair Value Measurements at Reporting Date Using

                                                Quoted Prices
                                                  In Active             Significant
                                                  Markets                 Other         Significant
                             Fair Value         For Identical           Observable     Unobservable
September 30, 2010               At                Assets                 Inputs          Inputs
(In Thousands)               9/30/2010            (Level 1)              (Level 2)       (Level 3)

 Available for sale:
  Other FCDAs               $ 2,847,742              $      2,847,742   $         -        $          -
  German Bonds                1,881,373                     1,881,373             -                   -
  French Bonds                1,221,970                     1,221,970             -                   -
  French Notes                1,628,524                     1,628,524             -                   -
  Japanese Bonds              7,773,629                     7,773,629             -                   -
Total                       $15,353,238                  $ 15,353,238             -                   -


                                                Fair Value Measurements at Reporting Date Using
                                                Quoted Prices
                                                  In Active       Significant
                                                  Markets           Other            Significant
                             Fair Value         For Identical     Observable       Unobservable
September 30, 2009               At                Assets           Inputs             Inputs
(In Thousands)               9/30/2009            (Level 1)        (Level 2)          (Level 3)

 Available for sale:
  Other FCDAs               $ 2,381,386         $          2,381,386    $         -    $              -
  German Bonds                 2,174,514                   2,174,514              -                   -
  French Bonds                 1,209,758                   1,209,758              -                   -
  French Notes                 1,678,380                   1,678,380              -                   -
  Japanese Bonds               7,244,724                   7,244,724              -                   -
Total                       $ 14,688,762        $         14,688,762    $         -    $              -




                                           23
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2010 and 2009



NOTE 6 – ACCUMULATED OTHER COMPREHENSIVE INCOME

The accumulated balances for other comprehensive income are as follows:

                                                                              Accumulated Other
                                                                             Comprehensive Income
 September 30, 2010 (In Thousands)

 Balance at September 30, 2009                                                                  $      1,433,970
 Unrealized holding gains/(losses)
       arising during the period                                      $        42,555
 Less: reclassification of gains recognized
       as net income                                                       (303,932)
      Other comprehensive loss                                                                         (261,377)
 Balance at September 30, 2010                                                                  $      1,172,593


                                                                               Accumulated Other
                                                                              Comprehensive Income
 September 30, 2009 (In Thousands)

 Balance at September 30, 2008                                                                  $                  -
 Unrealized holding gains on transferred
       securities at the date of transfer                                                                   35,474
 Unrealized holding gains/(losses)
       arising during the period                                  $        1,555,647
 Less: reclassification for gains recognized
       as net income                                                       (157,151)
       Other comprehensive income                                                                        1,398,496
 Balance at September 30, 2009                                                                  $        1,433,970


NOTE 7 – CERTIFICATES ISSUED TO FEDERAL RESERVE BANKS

The Special Drawing Right Act of 1968 authorized the Secretary of the Treasury to issue Special Drawing
Right certificates (SDRCs), not to exceed the value of SDR holdings, to the Federal Reserve System in return
for interest-free dollar amounts equal to the face value of certificates issued (SDR monetization). The
certificates may be issued for the purpose of financing the acquisition of SDRs from other countries or to
provide resources for financing other operations of the ESF. Certificates issued have no set maturity and are to
be redeemed by the ESF at such times and in such amounts as the Secretary of the Treasury may determine
(SDR demonetization). During FY 2009, Treasury issued $3.0 billion of SDRCs to the Federal Reserve. As of
September 30, 2010 and 2009, the amount of certificates issued to Federal Reserve Banks was $5.2 billion.




                                                      24
                                 DEPARTMENT OF THE TREASURY
                                 EXCHANGE STABILIZATION FUND
                                NOTES TO FINANCIAL STATEMENTS
                                    September 30, 2010 and 2009



NOTE 8 – TEMPORARY GUARANTEE PROGRAM FOR MONEY MARKET FUNDS

The Department established a Temporary Guarantee Program for Money Market Funds (Treasury Guarantee
Program) in September 2008 that was managed under the purview of the Treasury’s Office of Financial
Institutions Policy. Under the Treasury Guarantee Program, the Treasury guaranteed to individual investors
that they would receive the stable share price (SSP) for each share held in a participating money market fund
up to the number of shares held as of the close of business as of September 19, 2008. Use of ESF’s assets to
support the Treasury Guarantee Program was approved by the President and the Secretary of the Treasury on
September 19, 2008 and opened for participation on September 29, 2008.

To be eligible funds were required to be regulated under Rule 2a-7 of the Investment Company Act of 1940,
maintain a SSP, have a market-based net asset value (NAV) of at least 99.5 percent of the SSP as of
September 19, 2008, and be publicly offered and registered with the Securities and Exchange Commission.

To have participated in the Treasury Guarantee Program, eligible money market funds must have submitted an
application and paid a premium of 1 basis point if the fund’s NAV was greater than or equal to 99.75 percent
of the SSP, or 1.5 basis points of the SSP if the fund’s NAV was less than 99.75 percent of the SSP but greater
than or equal to 99.50 percent of the SSP. The program expired on September 18, 2009.

During the year-ended September 30, 2009, the ESF collected $1.2 billion in program participation payments.
These receipts represent the collection, less any returns, for the twelve months of coverage which began
September 19, 2008. Of the total $1.2 billion collected through the Treasury Guarantee Program $1.155 billion
was recognized as earned revenue as of September 30, 2009.

NOTE 9 - FAIR VALUES OF FINANCIAL INSTRUMENTS

Financial Instruments (FASB ASC 825-10) requires all entities to disclose the fair value of financial
instruments, where feasible, in an effort to provide financial statement users with information in making
rational investment and credit decisions.

To estimate the fair value of each class of financial instrument, the ESF applied the following methods
using the indicated assumptions:

Cash and Cash Equivalents

Cash and Cash Equivalents consist of U.S. government securities and FCDAs, and are reported in the
Statements of Financial Position at amounts that approximate their fair values.

Securities Purchased Under Agreement to Resell

The fair value is based upon quoted market interest rates for similar securities.

Certificates Issued to Federal Reserve Banks

The fair value of these certificates is based on the face value of the certificate as they are not subject to
market or interest rate risk nor are they subject to fluctuations in exchange rates.


                                                      25
                                DEPARTMENT OF THE TREASURY
                                EXCHANGE STABILIZATION FUND
                               NOTES TO FINANCIAL STATEMENTS
                                   September 30, 2010 and 2009




NOTE 9 - FAIR VALUES OF FINANCIAL INSTRUMENTS (Continued)

Special Drawing Right (SDR) Holdings and SDR Allocations

The fair values are based on quoted prices published weekly by the IMF.

Investment Securities, GSE Securities, and Other FCDAs

The fair value of Investment Securities and Other FCDAs are based upon quoted market and current
exchange rates.

The estimated fair values of the ESF’s financial instruments at September 30 are as follows:

                                                 2010                                  2009
 September 30, 2010 (In              Carrying                              Carrying
 Thousands)                          amount              Fair value        amount              Fair value

 Assets:
  Cash & Cash Equivalents           $ 28,520,996         $28,520,996      $ 28,484,464         $28,484,464
  Securities Purchased -
     Under Agreement to
        Resell                         2,503,143           2,503,143         2,642,566           2,642,561
  GSE Securities                               -                   -         1,100,000           1,100,141
  Investment Securities and
    Other Foreign Currency
     Denominated Assets               15,353,238          15,353,238        14,688,762          14,688,762
  SDR Holdings                        57,410,474          57,410,474        57,945,186          57,945,186

 Liabilities:

   Certificates Issued to
    Federal Reserve Banks              5,200,000           5,200,000         5,200,000           5,200,000
   SDR Allocations                    54,957,909          54,957,909        55,953,105          55,953,105




                                                    26
                               DEPARTMENT OF THE TREASURY
                               EXCHANGE STABILIZATION FUND
                              NOTES TO FINANCIAL STATEMENTS
                                  September 30, 2010 and 2009



NOTE 10 – COMMITMENTS AND CONTINGENCIES

A.    Foreign Currency Denominated Agreements

Foreign currency denominated agreements that exist between the Treasury and foreign entities or
governments provide for drawings of dollars by those entities or governments and drawings of foreign
currencies by the Treasury. The Treasury enters into these agreements through the ESF. Any balance the
ESF may hold under such agreements is held until the foreign entity or government repays the dollar
counterpart of that balance. The ESF is exposed to credit risk on foreign currency denominated
agreements in the event of default by counterparties to the extent of any amounts that have been recorded
in the Statement of Financial Position. Market risk would occur as a result of fluctuations in currency
exchange rates. Under these agreements, the ESF receives repayment of an agreed-upon amount in dollars
regardless of currency fluctuations. With the exception of the Mexico agreement below in Section B,
there were no foreign currency denominated agreements as of September 30, 2010 and 2009.

B.    Exchange Stabilization Agreements

The ESF has an Exchange Stabilization Agreement (ESA) with Mexico. In April 1994, the Treasury
signed the North American Framework Agreement, which includes the ESA with Mexico. The ESA
provides for a $3 billion standing swap line between the Bank of Mexico and the ESF.

The amounts and terms (including the assured source of repayment) of any new borrowings under the
North American Framework Agreement are subject to certain requirements of the agreement that specify
the transactions are exchange rate neutral for the ESF and would bear interest referenced to U.S. Treasury
bills. Drawings are contingent on certain other conditions being met.

There were no drawings outstanding on the ESF swap line as of September 30, 2010 and 2009. On
December 8, 2009, the Treasury renewed its participation in the agreement until December 2010.


NOTE 11 – SUBSEQUENT EVENTS

We evaluated and have had no subsequent events through December 2, 2010, the date that these financial
statements were available to be issued.




                                                   27
